       Review of the Effectiveness of Provisional Certification
         Administered by the U.S. Department of Education




                                 FINAL AUDIT REPORT




                                 Audit Control Number 07-70008
                                         January 1999




Our mission is to promote the efficient                           U.S. Department of Education
and effective use of taxpayer dollars                                Office of Inspector General
in support of American education                                 Western Area-Kansas City, MO
                             NOTICE

Statements that management practices need improvement, as well as other
 conclusions and recommendations in this report, represent the opinions of
 the Office of Inspector General. Determination of corrective action to be
taken will be made by appropriate Department of Education officials. This
 report may be released to members of the press and general public under
                      the Freedom of Information Act.
         Review of the Effectiveness of Provisional Certification


                                                Table of Contents

Executive Summary......................................................................................................................1

           Introduction.........................................................................................................................3

Audit Results..................................................................................................................................4

           More Information Is Needed Before New Schools
           Are Considered for Full Certification..................................................................................4

           The Department Has Not Revoked the Eligibility of Any Schools
           Under the Regulations For Provisional Certification.............................................................5

Recommendations...........................................................................................................................6

           Other Matters........................................................................................................................6

           Department’s Response and Auditor’s Comments...............................................................7

           Scope and Methodology........................................................................................................8

           Statement on Management Controls......................................................................................8
       Review of the Effectiveness of Provisional Certification


                             Executive Summary
The Department has placed approximately 1,400 at-risk schools on provisional certification during the
nearly six years that it has been in use. Provisional certification appears to have been used in
accordance with current statute and regulations. Furthermore, our review of a judgmental sample of
institutional files disclosed that the Institutional Participation and Oversight Service (IPOS) decision
to provisionally certify the schools was appropriate considering the available information. However,
because the Department has not revoked the eligibility of any provisionally certified schools to
participate in the student financial assistance (SFA) programs, we were unable to determine its overall
effectiveness as a tool to manage those at-risk schools who may fail to take corrective action or whose
compliance with Federal regulations deteriorated. We believe the Department could take other action
to improve its use of provisional certification and to ascertain whether provisional certification is an
effective tool to manage certain at-risk schools.

#      We recommend that the Department extend the period of provisional certification for
       new schools until it receives the financial and compliance audits covering the schools’
       first full award year.

               About 6 percent of the schools on provisional certification as of March 1998,
               were institutions granted initial eligibility to participate in the student financial
               assistance programs. New institutions are considered for full certification after
               only one award year on provisional certification. Financial and compliance
               audits are not always available within this short time period.

#      We recommend that the Department avail itself of the rules related to revoking
       provisional certification for schools when the opportunity presents itself.

               In our opinion, provisional certification is a potentially useful tool to control
               those schools that fail to comply with the rules governing participation in the
               SFA programs. While we did not conduct specific tests to determine that the
               Department should have revoked the eligibility of any provisionally certified
               school, we believe the Department should use the termination procedures
               permitted for provisionally certified schools to take action against those
               schools that fail to correct deficiencies to ascertain whether the revocation
               procedures are useful to manage certain at-risk schools.

The Department concurred with our recommendation that it should use the rules set out in the
provisional Program Participation Agreement related to revoking provisional certification for schools
when the opportunity presents itself. However, it did not concur with our recommendation to extend
the period of provisional certification for new schools until it receives the financial and compliance
audits covering the schools’ first full award year. We have not made changes to the report based on
the Department’s response. A synopsis of the Department’s response is included in the text of this


 ED - OIG                                     ACN: 07-70008                                            Page 4
report. The complete response is provided as an attachment to this report.




ED - OIG                                   ACN: 07-70008                     Page 5
Introduction


The 1992 amendments to the Higher Education Act of 1965 (HEA) gave the Department the authority
to use provisional certification for certain institutions participating in the Title IV Student Financial
Assistance (SFA) Programs.            Section 498, (h) PROVISIONAL CERTIFICATION OF
INSTITUTIONAL ELIGIBILITY of the HEA, as amended, provides that:

        (1) Notwithstanding subsections (d) and (g), the Secretary may provisionally certify an
        institution’s eligibility to participate in programs under this title -
                 (A) for not more than one complete award year in the case of an institution of higher
                 education seeking an initial certification; and
                 (B) for not more than 3 complete award years if -
                          (i) the institution’s administrative capability and financial responsibility is
                          being determined for the first time;
                          (ii) there is a complete or partial change of ownership, as defined under
                          subsection (i), of an eligible institution; or
                          (iii) the Secretary determines that the institution is, in the judgment of the
                          Secretary, in an administrative or financial condition that may jeopardize
                          its ability to perform its responsibilities under its program participation
                          agreement.

At the end of the period for which a school is placed on provisional certification, it must satisfactorily
meet all factors for full certification. If the school is unable to meet these factors, it may be removed
from continued participation in the Title IV programs without the appeal opportunities set out in 34
CFR 668, subpart G.

As of March 31, 1998, the Department has placed approximately 1,400 at-risk schools on provisional
certification. The chart below shows the distribution of schools on provisional certification by reason.
About 4 percent of the schools placed on
provisional certification are put there for reasons
of financial capability. Schools placed on
provisional certification for financial reasons are
required to post letters of credit (sureties). Many
schools are placed on provisional certification for
several of the 14 conditions identified by the
IPOS. Among these conditions are failing to
submit a required audit, SFA program review
findings, change of ownership, and accrediting
agency restrictions. Schools in the “Other”
grouping are those who were placed on
provisional certification for reasons other than
initial eligibility, high cohort default rate only, and
financial condition as a primary reason.




 ED - OIG                                        ACN: 07-70008                                              Page 6
                                              Audit Results
While the Department appears to have used provisional certification in accordance with current
statutory and regulatory provisions, we believe the Department could improve provisional
certification’s use. The lack of additional information to support full certification of new schools after
only one award year on provisional certification could hinder the effectiveness of provisional
certification for managing at-risk schools. Although available for nearly six years, the Department has
not revoked the eligibility of any provisionally certified schools to participate in the SFA programs
using the rules set out in Federal regulation and the provisional Program Participation Agreement
(PPA). We believe the Department should use the termination procedures permitted for provisionally
certified schools to take action against those schools that fail to correct deficiencies.


More Information Is Needed Before New Schools
Are Considered for Full Certification


New institutions are considered for full certification after one award year on provisional certification1.
One award year does not always allow enough time to accumulate the financial and compliance audits
that are critical to determining whether a new school should be fully certified.

Financial statement and compliance attestation reports are due 6 months after the end of the school’s
fiscal year. Single audits are due no later than either 9 or 13 months after the end of the school’s fiscal
year, depending upon whether the school’s fiscal year ends before or after June 30, 1998. These
varied time requirements could preclude the gathering of additional administrative and financial
information concerning a school during the current short provisional certification period for new
schools. As a result, the Department may be fully certifying some institutions without this important
new information.

In one instance, the recertification checklist in the Department’s files, which is used to document the
Department’s efforts to determine whether an institution should be fully certified, indicated there was
not really any more information available after one award year to make a decision regarding full
certification. Increasing the length of time a new school is on provisional certification would allow
for the accumulation of additional information on a school’s administrative and financial capabilities,
and would result in a more informed decision on the appropriate certification status of the school.




The Department Has Not Revoked the Eligibility of Any Schools
Under the Regulations For Provisional Certification

           1
              The HEA provides for provisional certification for an institution’s initial participation in the Title IV programs to
 expire no later than the end of the first complete award year following the date of provisional certification (HEA of 1965, as
 amended, subpart 3, section 498(h)(1)(A)).

 ED - OIG                                                ACN: 07-70008                                                     Page 7
Although provisional certification has been available for nearly six years, the Department has not used
it to revoke the eligibility of any schools. While we did not conduct specific tests to determine that
the Department should have revoked the eligibility of any provisionally certified school, we believe the
Department should use the termination procedures permitted for provisionally certified schools to
ascertain whether the revocation procedures are useful to manage certain at-risk schools. Furthermore,
the rules governing the revocation of provisional certification have the potential to save significant
resources as compared to the use of the formal termination action against schools provided for under
34 CFR 668, subpart G2.

Section 498, (h)(3) PROVISIONAL CERTIFICATION OF INSTITUTIONAL ELIGIBILITY of the
HEA, as amended, permits the termination of schools that fail to make the changes necessary to
comply with Federal regulations. It provides that:

         If, prior to the end of a period of provisional certification under this subsection, the
         Secretary determines that the institution is unable to meet its responsibilities under
         its program participation agreement, the Secretary may terminate the institution’s
         participation in programs under this title.

34 CFR 668.13 (d)(2)(ii) provides that:

         The revocation takes effect on the date that the Secretary mails the notice to the
         institution.

34 CFR 668.13 (d)(2)(iii) states that:

         ...the institution may request the Secretary to reconsider the revocation.

Institutions retained in the SFA programs under provisional certification agree to the terms specified
in the PROGRAM PARTICIPATION AGREEMENT [PROVISIONAL APPROVAL]. The PPA for
provisional certification states:

         The execution of this Agreement by the Institution and the Secretary is a prerequisite
         to the Institution’s initial or continued participation in any Title IV, HEA Program....
         In the event the Department chooses to revoke this Agreement and the Institution’s
         participation in the Title IV, HEA programs, the Institution will have the right to show
         cause why this Agreement should not be revoked by presenting its objections to the
         designated Department official in writing. The Institution agrees that this opportunity
         to show cause, and not the procedures in 34 CFR 668 subpart G, shall be the sole
         administrative appeal regarding such revocation. The decision by the designated
         Department official will constitute the final agency action.

Departmental officials informed us that the rules set out in 34 CFR 668.13 and the provisional PPA
had not been used to revoke provisional certification. We were told that such action was reserved for


           2
               The savings could result from the limited process of reviewing the Secretary’s decision to revoke an institution’s
 eligibility as opposed to a formal appeal, the uncertainty associated with sustaining an Emergency Action, and limiting a
 schools access to SFA funds if the Department’s Emergency Action is not sustained.

 ED - OIG                                                ACN: 07-70008                                                    Page 8
the most egregious cases and to date it has not been necessary to use the provisional certification rules
related to revocation. We were informed by another Departmental official that there may be some
concern regarding the rules of due process when using the revocation rules under provisional
certification. Regardless of the reason, it seems improbable that, after nearly six years and with over
1,400 schools placed on provisional certification, no school has warranted the revocation of its
certification under the provisional certification guidelines set out in both Federal regulation and the
provisional PPA.




                                Recommendations
We recommend that the Department take the following actions to improve the effectiveness of
provisional certification:

1.      Extend the period of provisional certification for new schools until the Department receives
        the financial and compliance audits covering the schools’ first full award year.

2.      Use the rules set out in the provisional PPA related to revoking provisional certification for
        schools when the opportunity presents itself.




Other Matters


Approximately 38 percent of the institutions provisionally certified as of March 1998 (535 of 1,400)
were certified as such solely on the basis that their cohort default rate exceeds 25 percent in at least
one of the three most recent years. We were informed that no additional assistance or oversight is
provided to these institutions to assist them in reducing their cohort default rate. Moreover, the
provisional certification for these institutions may not be revoked, nor can a punitive action be taken,
based solely on a high default rate of less than 40 percent for only one year. As a result, a large
number of institutions have been placed on provisional certification for which remedial action can not
be taken and for which additional assistance and oversight is not provided. If the Department is unable
to provide these institutions with additional assistance and oversight, then placing the schools on
provisional certification based solely on their default rate appears to be of limited value. Furthermore,
this practice is contributing to the growth of the population of institutions on provisional certification,
which may become less manageable due to the large number of institutions provisionally certified.


Department’s Response and Auditor’s Comments


The response states that our recommendation to extend the period of provisional certification for new
schools is inconsistent with the HEA and unnecessary. The intent of our recommendation to extend


 ED - OIG                                     ACN: 07-70008                                        Page 9
the period of time for provisionally certified new schools is to ensure that procedures are in place to
require that additional and updated financial and compliance information is available before granting
full certification for provisionally certified new schools. The Department notes, and we agree, that
the HEA places limits on the period of time new schools may be placed on provisional certification.
We are not recommending that the Department violate the HEA. The extension of time we
recommend is similar to the Department’s avowed practice of extending provisional certification for
short periods of time until the data needed to make an informed judgement is provided3. However,
our file review did not reveal any documentation of a school being extended on provisional
certification on a month-to-month basis. Moreover, our review did show that on at least one occasion,
when a school’s provisional certification should have been extended on a month-to-month basis, this
procedure was not followed.

The response also stated the Department’s belief that the recommendation was unnecessary because,
“...Case Management teams monitor schools and practice early intervention whenever an institution
begins to show evidence that it is experiencing problems in complying with its Title IV program
responsibilities.” Our file review did not reveal any documentation of additional monitoring of schools
on provisional certification other than for financial reasons. A school’s performance was not reviewed
until the school applied for recertification.

The Department agreed with our recommendation that it should use the rules set out in the provisional
PPA related to revoking provisional certification for schools when the opportunity presents itself.

The Department did not agree with our statement, included in the Other Matters section of the report,
that placing schools on provisional certification based solely on default rates appears to be of limited
value. However, the response noted that in the future schools placed on provisional certification for
default purposes will be reminded that Appendix D of 34 CFR 668 can assist the school in managing
its cohort default rate.




            3
              The Department’s response stated: “In those instances where a compliance audit might not be received in time to be reviewed before the
 expiration of the provisional certification, the school’s participation is extended on a month-to-month basis until the audit report can be reviewed.”


 ED - OIG                                                         ACN: 07-70008                                                             Page 10
Scope and Methodology

The objective of our review was to determine the effectiveness of provisional certification. Our audit
covered schools placed on provisional certification from July 1, 1992 through March 31, 1998, and
we reviewed the available SFA files for judgmental samples that included a total of 59 schools4. We
reviewed the files to ascertain the reason and length of time the schools were placed on provisional
certification. In addition, we determined the schools’ current certification status and whether any
additional monitoring activity was made by the Department at these at-risk institutions. We did not
conduct specific tests to determine that the Department should have revoked the eligibility of any
provisionally certified school. We relied on computer-processed data contained in the Department’s
Postsecondary Education Participants System (PEPS) database. We performed testing for
completeness and accuracy of the computer processed data. We concluded that the data utilized in
our analyzes was sufficiently reliable to meet our audit objective.

Our review was conducted from November 1997 through May 1998. We visited the Department of
Education’s headquarters in Washington, D.C., where we obtained an overview of the procedures
related to provisional certification. In addition, we conducted fieldwork and our analysis of the data
at our Kansas City and Seattle offices. Our audit was conducted in accordance with generally
accepted government auditing standards applicable to the limited scope of review described above.


Statement on Management Controls

As part of our review we assessed the system of management controls, policies, procedures, and
practices applicable to the Department’s monitoring of schools on provisional certification. Our
assessment was performed to determine the level of control risk for determining the nature, extent,
and timing of our substantive tests to accomplish the audit objective. For the purpose of this report
we assessed and classified the significant controls into the following categories:

        -         File Maintenance
        -         Management of Sureties
        -         PEPS Data Input

Because of inherent limitations, a study and evaluation made for the limited purposes described above
would not necessarily disclose all material weaknesses in the management controls. However, our
assessment disclosed management control weaknesses which could adversely affect the Department’s
ability to effectively utilize provisional certification. These weaknesses are discussed in the AUDIT
RESULTS section of this report. In addition, issues related to File Maintenance (missing current
Program Participation Agreements and missing files) were discussed in SFA Action Memorandum 98-
06 issued by the OIG’s Chicago Office on March 2, 1998.




            4
             As discussed in the Management Controls section of this report, all files related to the sample of 59 schools were
not readily available at the time of our fieldwork. Typically, schools have three files - Eligibility File, Compliance Audit File,
and a Financial File. For schools in our sample, four Eligibility Files, seven Compliance Audit Files, and four Financial Files
were not received during our on site field work at IPOS. We were able to satisfy our assignment objectives without these files.

ED - OIG                                                ACN: 07-70008                                                  Page 11
           EXHIBIT: Department of Education Response




ED - OIG                    ACN: 07-70008              Page 12
ED - OIG   ACN: 07-70008   Page 13
                                REPORT DISTRIBUTION LIST
                                Audit Control Number A07-70008

Action Official                                                            No. of Copies

Mr. Greg Woods, Chief Operating Officer                                                    4
Office of Student Financial Assistance Programs
400 Maryland Avenue, S.W.
ROB #3         Suite 4004
Washington, D.C. 20202-5132

Other ED Offices

Dr. David Longanecker, Assistant Secretary for Postsecondary Education                     1
Mr. Steven Y. Winnick, Deputy General Counsel, Office of General Counsel                   1
Mr. Marshall Smith, Deputy Secretary of Education                                          1
Mr. Marshall Smith, Office of the Under Secretary of Education                             1
Ms. Linda Paulsen, Service Director,AFMS                                                   1
Ms. Jeanne Van Vlandren, Director, IPOS                                                    1
Mr. Charles Miller, Post Audit Group Supervisor
                                                                                                    1
Mr. David Frank, Public Affairs Office                                                     1

Office of Inspector General

Inspector General (Acting)                                                                 1
Deputy Inspector General (Acting)                                                          1
Assistant Inspector General for Audit (Acting)                                    1
Assistant Inspector General for Investigation                                              1
Assistant Inspector General for Operations, Western Area                                   1
Assistant Inspector General for Operations, Eastern Area                                   1
Director, Student Financial Assistance Advisory and Assistance
                                                                                                    1
Planning, Analysis & Management Services (electronic)                                      1
Area Managers                                                                              1 each




 ED - OIG                                   ACN: 07-70008                                  Page 14
               OIG AUDIT TEAM

                   Audit Staff:

             William Paquin, CGFM
            Carolyn McShannon, CPA
             Margaret Montgomery

                William Allen, CPA


           Information Technology Staff:

             Jan Keeney, CPA, CISA


            Advice & Assistance Staff:

                 Lee Greear, CPA
                   Pat Howard




ED - OIG            ACN: 07-70008          Page 15
